No:
IN THE SUPREME COURT OF THE UNITED STATES
TUAN NGOC LUONG,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner Tuan Ngoc Luong, through undersigned counsel and pursuant to
Sup. Ct. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third -party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the

th day of May, 2021, which is timely

pursuant to the rules of this Court.

Dated: May /,2021

EOFFREY A. NSEN
A ting Federal P blic Defender

JOH PAUL RE CHNIUTH*
ROBIN PACKEL
Assistant Federal ublic Defenders
a

COT โข

1301 Clay S ree , uite 1350N
II CA 94612
(510) 637-3500
john_reichmuth@fd.org

